     -
       I
       1


                                                           NATIONAL SCIENCE FOUNDATION
                                                            OFFICE OF INSPECTOR GENERAL
                                                              OFFICE OF INVESTIGATIONS

       o                                   MEMORANDUM OF INVESTIGATION

     Case Number: A02090042                                                                        Page 1 of 1



               A proactive review by our office of a proposal submitted to NSF indicated that the proposal
      1
      '1
               contained plagiarized material. We found that the proposal was originally submitted by the
               subject to an international program administered by an interagency board under the aegis of the
       I

               U.S. Department of state'. The proposal listed the subject PI, who was from an awardee U.S.
               institution, as well as a foreign Co-PI from a non-awardee foreign institution.

               The subject responded to our inquiry and stated that he did not write the proposal. Instead, a
               foreign scientist, who appeared to have worked for the foreign Co-PI, wrote the proposal. The
               letter stated that the foreign scientist who actually wrote the proposal was on extended leave from
               the foreign university. The subject did not have an address for the foreign scientist.

               The subject provided a letter from the foreign Co-PI. The letter confirmed that the subject did
               not write the proposal, but that the foreign scientist wrote the proposal and must have committed
               any plagiarism contained in the proposal. The letter also confirmed that the foreign institution
      :        did not know the exact whereabouts of the foreign scientist. The subject also provided screen

      I
      !
       I
               shots of the proposal in Word with the background properties showing that the foreign scientist
               was listed as the author of the proposal.

               Because of extenuating circumstances, our office will not pursue this investigation. Accordingly,
               this case is closed.




II         Sign 1 date
                                            Investigator                                        Date



 NSF OIG Form 4 (1 1/02)
